+"'1' ~EKV'C£'8




(~
.~ -.t¿
 -tQ'Vd:;OC
                      DEPARTMENT OF HEALTH
                      DEPARTMENT OF HEALTH &&HUMAN
                                             HUAN SERVICES
                                                   SERVICES                                                  Office
                                                                                                             Office of Inspector
                                                                                                                       Inspector General


                                                                                                             Washington, D.C.
                                                                                                             Washington,
                                                                                                                                 General


                                                                                                                         D.C. 20201

                                                                                                                              20201




                                                           SEP -- 222009

                                                           SEP       2009

              TO:
              TO: Charlene  Frizzera
                       Charlene Frizzera
                               Acting Administrator
                               cent;~Caid
                               Centers for Medicare & M icaid Services
                                                               Services


           FROM:
           FROM:   ~hE.
                 /;:;~~
                        ~~~
                         Vengrin
                                         Inspector General for Audit Services
                         / ;:;~~ Inspector General for Audit Services



                         Review
              SUBJECT: Review  of of Connecticut's
                                  Connecticut's    CommunityBased
                                                Community    BasedMedicaid
                                                                   MedicaidAdministrative
                                                                           Administrative Claims
                                                                                          Claims for
                                                          (A-OI-08-00003)
                         State Fiscal Years 2005 and 2006 (A-01-08-00003)


                                          of our final report on community based Medicaid administrative costs
              Attached is an advance copy of
              claimed by the Connecticut Department of of Social Services (the State agency)
                                                                                      agency) for State
                                                                                                  State fiscal years
              (FY) 2005
              (FY) 2005 and
                         and 2006.  We wil
                              2006. We willissue
                                            issuethis
                                                  thisreport
                                                       reporttotothe
                                                                  theState
                                                                      Stateagency
                                                                            agency within
                                                                                   within 55 business
                                                                                             business days.
                                                                                                      days.

              The State agency,agency, through
                                            through contracts
                                                        contracts awarded
                                                                  awarded byby the
                                                                                the Connecticut
                                                                                    Connecticut Department
                                                                                                    Deparment of of Mental Health
              and Addiction Services (DMHAS), purchases administrative case management activities from
              contracted organizations
                                organizations that    that provide mental
                                                                    mental health
                                                                            health and
                                                                                    and related
                                                                                         related services.  In State
                                                                                                  services. In State FY 2004, the
              State agency
                        agency beganbegan claiming
                                              claiming Federal
                                                           Federal reimbursement
                                                                   reimbursement for for the  costs ofthese
                                                                                          the costs  ofthese activities on the
              Centers for  for Medicare &        & Medicaid Services (CMS) Form CMS-64 through a process referred to
              as the
                  the Community
                         Community Based     Based Medicaid
                                                       Medicaid Administrative
                                                                  Administrative Claim
                                                                                   Claim (CBMAC).
                                                                                            (CBMAC). To compute its CBMACs,
              the   State
              the State      agency
                        agency           used
                               used a random     a time
                                             moment random
                                                        
                   study (RMS)
                                                              moment timestudy     (RMS) ofthe
                                                                                             ofthe employee
                                                                                                    employee activities at the 80
              contracted
              contracted organizations
                                organizations that    that provided
                                                            providedthese
                                                                      theseactivities.
                                                                            activities. The
                                                                                        The State
                                                                                              State agency
                                                                                                     agency claimed
                                                                                                             claimed $19.8
                                                                                                                      $19.8million
                                                                                                                             milion
              for Federal
                    Federal reimbursement of             of CBMAC-related costs during State  State FY
                                                                                                    FYss 2005
                                                                                                         2005 and 2006 based on
              the   results
              the results of 
 of this RMS.




              Our objective
                  objective was
                            was to
                                to determine whether the State agency's CBMACs for
                                                                               for State
                                                                                   State FYs
                                                                                         FYs 2005
                                                                                             2005 and
                                                                                                  and
              2006
              2006 complied with Federal requirements.

              The
              The State agency's CBMACs may not have
                                                have fully
                                                     fully complied
                                                           complied with
                                                                    with Federal
                                                                         Federal requirements.
                                                                                 requirements.
              Specifically:

                  •. The
                      TheState
                           State agency's
                                  agency's calculation
                                             calculationofthe
                                                           oftheCBMACs
                                                                  CBMACs waswasbased
                                                                                 basedononthe
                                                                                            the Medicaid-allocable
                                                                                                Medicaid-allocable
                      costs
                      costs incurred
                            incurred byby the
                                           the 80
                                               80 contracted
                                                   contracted organizations
                                                              organizations ($161,480,735), which exceeded by
                      $19
                      $19 million   the total
                           milion the   total amount
                                              amount that
                                                       that DMHAS
                                                            DMHAS actually
                                                                      actually paid to these contracted organizations
                      ($142,440,646)
                      ($142,440,646) for both Medicaid and non-Medicaid services
                                         for both  Medicaid  and non-Medicaid      services and
                                                                                             and activities.  We were
                                                                                                  activities. We  were
                      unable
                      unable toto determine
                                  determine the   impact of
                                              the impact  of overstating
                                                             overstating the
                                                                          the cost
                                                                              cost base
                                                                                    base on
                                                                                         on the
                                                                                             the CBMACs
                                                                                                 CBMACs because
                                                                                                              because of
                                                                                                                      of
                      other
                      other errors
                             errors in
                                    in the
                                       the calculation.
Page 2 – Charlene Frizzera


   •	 The documentation from the RMS was inadequate for us to determine whether the
      sampled administrative case management activities were allowable and whether they
      were provided to Medicaid applicants or eligibles.

   •	 The allocation method that the State agency used to identify and determine the amount of
      administrative case management activities contained deviations from acceptable
      statistical sampling practices.

We were unable to quantify the effect of the omissions and deviations from acceptable practices
that the State agency made when calculating its CBMACs. Specifically, these omissions and
deviations affected both the accuracy of the calculations of the costs allocated to the CBMACs and
the validity of the RMS used to allocate these costs. We are thus unable to express an opinion on
the allowability of the State agency’s $19.8 million in CBMACs for State FYs 2005 and 2006.

These omissions and deviations occurred because the State agency did not establish adequate
procedures to ensure that its CBMACs complied with Federal requirements.

We recommend that the State agency:

   •	 work with CMS to determine what portion of the CBMACs totaling $19,813,373 for
      State FYs 2005 and 2006 was allowable under Federal requirements by, at a minimum:

           o	 limiting the cost base used to calculate the CBMACs to the amount that DMHAS
              actually paid the 80 contracted organizations,

           o	 obtaining sufficient documentation from the RMS to determine the allowability of
              the activities used to allocate the costs, and

           o	 following acceptable statistical sampling practices and

   •	 consider the results of this review in its evaluation of our prior recommendations.

In written comments on our draft report, the State agency agreed with our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov,
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2689 or through email at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-08-00003 in all correspondence.


Attachment
   ~S!IlVlCJ''.b:




 J
( ~ DEPARTMENT 

                          DEPARTMENTOFOFHEALTH
                                         HEALTH && HUHUMAN SERVICES
                                                           SERVICES                                                     OFFICE
                                                                                                                        OFFICEOF

                                                                                                                        Offce
                                                                                                                        Region
                                                                                                                               OFINSPECTOR


                                                                                                                         Region II
                                                                                                                        John
                                                                                                                        Room
                                                                                                                         Room2425
                                                                                                                                  INSPECTOR GENERAL

                                                                                                                         OfficeofofAudit
                                                                                                                                            GENERAL

                                                                                                                                    AuditServices

                                                                                                                         JohnF.F.Kennedy
                                                                                                                                          Services

                                                                                                                                   KennedyFederal
                                                                                                                                2425
                                                                                                                                            FederalBuilding
                                                                                                                                                    Building

                                                                    SEP -- 882009
                                                                    SEP       2009                                      Boston,
                                                                                                                         Boston, MAMA 02203
                                                                                                                                       02203
                                                                                                                         (617) 565-2684
                                                                                                                        (617)  565-2684

                    Report Number:
                    Report          A-01-08-00003
                           Number: A-O 1-08-00003


                    Mr. Michael
                    Mr. Michael P.
                                 P. Starkowski
                                    Starkowski
                    Commissioner
                    Commissioner
                    Departmentofof
                    Deparent       SocialServices
                                 Social   Services
                       Sigourney Street
                    25 Sigourey   Street
                    Hartford, Connecticut
                    Harford,  Connecticut 06106-5033
                                           06106-5033

                    Dear Mr. Starkowski:
                             Starkowski:

                    Enclosed is the U.S. Department ofHealth
                    Enclosed is the U.S. Deparent of 
                        Health and Human Services     Services (HHS),
                                                                                                                      (HHS), Office
                                                                                                                               Office ofInspector
                                                                                                                                      ofInspector
                    General
                    General (OIG),(OIG),      [mal
                                   final report       report
                                                entitled "Review entitled
                                                                 of 
         "Review of Connecticut's Communty    CommunityBasedBasedMedicaid
                                                                                                                                         Medicaid
                    Administrative           Claims       for   State    Fiscal    Years     2005      and
                    Administrative Claims for State Fiscal Years 2005 and 2006." We wil forward a copy of 
 2006."  We   will forward  a copy of this
                    report to the HHS    HHS action official             noted on
                                                             offcial noted         on the
                                                                                        the following
                                                                                              following page page for
                                                                                                                  for review
                                                                                                                       review and
                                                                                                                               and any
                                                                                                                                   any action
                                                                                                                                        action deemed
                                                                                                                                               deemed
                    necessary.
                    necessar.

                    The HHSHHS action official will                makefinal
                                                            wil make         final determination
                                                                                     determination as as to
                                                                                                          to actions
                                                                                                             actions taken
                                                                                                                      taken on
                                                                                                                             on all
                                                                                                                                all matters
                                                                                                                                    matters reported.
                                                                                                                                             reported.
                    We    request      that   you    respond       to  this   official     within
                    We request that you respond to this offcial within 30 days from the date of 
 30 days   from  the  date of this letter.
                                                                                                                                    letter. Your
                    response should present any comments or additional information that you believe may have a
                    bearing on the final determination.

                    Pursuant to
                              to the  Freedom of
                                  the Freedom      Information Act, 55 U.S.C. §§ 552,
                                                ofInformation                     552, OIG reports generally are made
                    available
                    available to
                              to the
                                  the public
                                      public to
                                             to the extent that information in the report is not subject to exemptions in
                    the Act.  Accordingly,
                    the Act. Accordingly,    this report will beposted
                                                         wil be  posted on
                                                                        on the
                                                                            the Internet
                                                                                Internet at
                                                                                         at http://oig.hhs.gov.

                    If you
                       you have
                            have any
                                 any questions
                                      questions or
                                                or comments
                                                    comments about
                                                               about this
                                                                      ths report, please do not hesitate to call me, or contact
                    Curtis  Roy,
                    Curis Roy,   Audit Manager,
                                       Manager, (617) 565-9281 or
                                                   at (617) 565-9281   orthrough
                                                                           throughemail
                                                                                    emailatatCurtis.Roy@oig.hhs.gov.
                                                                                              Curtis.Roy~oig.hhs.gov. Please
                    refer
                    refer to
                          to report
                             report number
                                    number A-01-08-00003 in all correspondence.



                                                                              ~1~
                                                                                Sincerely,
                                                                                Sincerely,



                                                                                MichaelJ.J.Armstrong
                                                                                Michael      Arstrong
                                                                                Regional Inspector
                                                                                Regional  Inspector General
                                                                                                    General
                                                                                  for Audit
                                                                                 for  Audit Services
                                                                                            Services


                    Enclosure
                    Enclosure
Page 2 – Mr. Michael P. Starkowski

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF CONNECTICUT’S 

 COMMUNITY BASED MEDICAID 

 ADMINISTRATIVE CLAIMS FOR 

    STATE FISCAL YEARS

       2005 AND 2006 





                    Daniel R. Levinson

                     Inspector General


                     September 2009

                      A-01-08-00003

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices 


     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND 


The Federal and State Governments jointly fund and administer the Medicaid program. Section
1903(a)(7) of the Social Security Act permits States to claim Federal reimbursement for
50 percent of the costs of Medicaid administrative activities that are necessary for the proper and
efficient administration of the State plan.

In Connecticut, the Department of Social Services (the State agency) administers the Medicaid
program. The State agency, through grant-in-aid contracts awarded by the Connecticut
Department of Mental Health and Addiction Services (DMHAS), purchases administrative case
management activities from contracted organizations that provide mental health and related
services. The State agency began claiming Federal reimbursement for the costs of these
purchased administrative activities in State fiscal year (FY) 2004 on the Centers for Medicare &
Medicaid Services (CMS) Form CMS-64 through a process referred to as the Community Based
Medicaid Administrative Claim (CBMAC). To compute the CBMAC, the State agency used a
random moment timestudy (RMS) of employee activities at the 80 contracted organizations that
provided these activities.

The State agency claimed $19.8 million for Federal reimbursement of CBMAC-related costs
during State FYs 2005 and 2006.

OBJECTIVE

Our objective was to determine whether the State agency’s CBMACs for State FYs 2005 and
2006 complied with Federal requirements.

SUMMARY OF FINDINGS

The State agency’s CBMACs may not have fully complied with Federal requirements.
Specifically:

   •	 The State agency’s calculation of the CBMACs was based on the Medicaid-allocable
      costs incurred by the 80 contracted organizations ($161,480,735), which exceeded by
      $19 million the total amount that DMHAS actually paid to these contracted organizations
      ($142,440,646) for both Medicaid and non-Medicaid services and activities. We were
      unable to determine the impact of overstating the cost base on the CBMACs because of
      other errors in the calculations.

   •	 The documentation from the RMS was inadequate for us to determine whether the
      sampled administrative case management activities were allowable and whether they
      were provided to Medicaid applicants or eligibles.

   •	 The allocation method that the State agency used to identify and determine the amount of
      administrative case management activities contained deviations from acceptable
      statistical sampling practices.

                                                 i
We were unable to quantify the effect of these omissions and deviations from acceptable
practices. Specifically, these omissions and deviations affected both the accuracy of the
calculations of the costs allocated to the CBMACs and the validity of the RMS used to allocate
these costs. We are therefore unable to express an opinion on the allowability of the State
agency’s CBMACs totaling $19.8 million for State FYs 2005 and 2006.

These omissions and deviations occurred because the State agency did not establish adequate
procedures to ensure that its CBMACs complied with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •	 work with CMS to determine what portion of the CBMACs totaling $19,813,373 for
      State FYs 2005 and 2006 was allowable under Federal requirements by, at a minimum:

           o	 limiting the cost base used to calculate the CBMACs to the amount that DMHAS
              actually paid the 80 contracted organizations,

           o	 obtaining sufficient documentation from the RMS to determine the allowability of
              the activities used to allocate the costs, and

           o	 following acceptable statistical sampling practices and

   •	 consider the results of this review in its evaluation of our prior recommendations.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations.
The State agency’s comments are included in their entirety as Appendix D.




                                               ii
                                                  TABLE OF CONTENTS 


                                                                                                                         Page


INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1 

              Medicaid Program........................................................................................1 

              Connecticut’s Community Based Medicaid Administrative Claim.............1 

              Prior Office of Inspector General Report.....................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

               Objective ......................................................................................................2 

               Scope............................................................................................................2 

               Methodology ................................................................................................3 


FINDINGS AND RECOMMENDATIONS ....................................................................3 


          FEDERAL REQUIREMENTS................................................................................4 


          NONCOMPLIANCE WITH FEDERAL REQUIREMENTS.................................4 

              Overstated Cost Base ...................................................................................4 

              Inadequate Documentation ..........................................................................5 

              Deviations From Acceptable Statistical Sampling Practices .......................6 


          EFFECT OF STATE AGENCY’S OMISSIONS AND DEVIATIONS.................7 


          LACK OF ADEQUATE PROCEDURES...............................................................7 


          RECOMMENDATIONS.........................................................................................7 


          STATE AGENCY COMMENTS............................................................................8 


APPENDIXES

          A – DETAILS OF ORGANIZATIONS PARTICIPATING IN CONNECTICUT’S 

               COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM 

               FOR STATE FISCAL YEARS 2005 AND 2006


          B – RANDOM MOMENT TIMESTUDY ACTIVITY CODES FOR CONNECTICUT’S 

              COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM 

              FOR STATE FISCAL YEARS 2005 AND 2006 


          C – CALCULATION OF CONNECTICUT’S COMMUNITY BASED MEDICAID 

               ADMINISTRATIVE CLAIMS FOR STATE FISCAL YEARS 2005 AND 2006 


          D – STATE AGENCY COMMENTS
                                                                    iii
                                                  INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1903(a)(7) of the Act permits States to claim Federal reimbursement for 50 percent of
the costs of Medicaid administrative activities that are necessary for the proper and efficient
administration of the State plan. States submit expenditures for administrative activities for
reimbursement on the Form CMS-64, “Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program” (CMS-64).

Connecticut’s Community Based Medicaid Administrative Claim

In Connecticut (the State), the Department of Social Services (the State agency) administers the
Medicaid program. The State agency, through grants-in-aid awarded by the State’s Department
of Mental Health and Addiction Services (DMHAS), purchases Medicaid administrative case
management activities from organizations that provide mental health and related services. The
contracted organizations that provide these purchased services include clinics and shelters,
components of universities and hospital systems, religious and service organizations, and a local
government (Appendix A).

For State fiscal years (FY) 2005 and 2006, the State agency claimed Federal reimbursement for
the costs of these purchased administrative activities on the CMS-64 through a process referred
to as the Community Based Medicaid Administrative Claim (CBMAC). 1 To compute the
CBMAC, the State agency conducted a random moment timestudy (RMS) of the activities of the
employees of each contracted organization to determine the portion of these activities that were
allocable to the Medicaid program (Appendix B). This RMS included a multistage sample
consisting of (1) a random selection of 751 contracted organization employees and (2) a random
selection of moments of time from each of these employees’ work schedules. The State agency
applied the results of the RMS to the contracted organizations’ reported Medicaid-allocable costs
for the State FYs that ended June 30, 2005, and June 30, 2006 (Appendixes A and C).

The State agency’s CBMACs totaled $19.8 million for State FYs 2005 and 2006. The State
agency claimed this amount at 50-percent Federal financial participation (FFP) based on the

1
 For these years, the State agency contracted with a third-party contractor to develop the CBMAC. This
contingency fee contract was valued at 8 percent of new Federal funds generated by the contractor’s efforts. The
State agency did not claim the contingency fee for Federal reimbursement.


                                                         1

assumption that DMHAS purchased administrative case management activities from the 80
contracted organizations. The State’s share of the CBMACs was the portion of the $142,440,646
grant-in-aid contract payments that DMHAS paid for administrative case management activities.

Prior Office of Inspector General Report

In a prior report, 2 we reviewed the State agency’s CBMAC for State FY 2004. We found that
the State agency’s CBMAC may not have fully complied with Federal requirements. We
recommended that the State agency draft future contracts with the organizations whose activities
were claimed on the CBMAC to identify and properly value the amount of administrative case
management activities and work with CMS to determine what portion of the CBMAC for State
FY 2004 was allowable under Federal requirements. The State agency generally agreed with our
recommendations. CMS and the State agency had not completed corrective action as of June 16,
2009.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s CBMACs for State FYs 2005 and
2006 complied with Federal requirements.

Scope

We reviewed the $19.8 million in CBMAC costs that the State agency claimed on its CMS-64 

reports for the quarters that ended December 31, 2005, March 31, 2006, and June 30, 2006.

State FY 2005 was claimed entirely on the December 31, 2005, CMS-64 report and State 

FY 2006 was claimed on the CMS-64 reports over the quarters ending December 31, 2005, 

March 31, 2006, and June 30, 2006. 


Our objective did not require an understanding or assessment of the State agency’s internal 

control structure. We limited our review to the State agency’s preparation of the CBMACs. 


We performed our fieldwork from February through December 2008 at the State agency and 

DHMAS in Hartford, Connecticut, and at several contracted organizations throughout the State 

whose costs were used to develop the CBMACs. 





2
 “Review of Connecticut’s Community Based Medicaid Administrative Claim for State Fiscal Year 2004”
(A-01-06-00008), issued February 20, 2009.


                                                     2

Methodology

To accomplish our audit objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance;

   •	 interviewed officials and reviewed policies with the State agency, DMHAS, and seven
      contracted organizations whose costs were used to develop the CBMACs;

   •	 reviewed the State agency’s oversight of the activities of the contractor that prepared the
      claim;

   •	 reviewed the grant-in-aid contracts between DMHAS and the 80 contracted organizations
      whose costs were included in the CBMACs;

   •	 reviewed the cost allocation plan approved by the Division of Cost Allocation of the
      U.S. Department of Health and Human Services and the State agency’s methodology for
      allocating administrative costs;

   •	 traced the 80 contracted organizations’ reported costs used to calculate the CBMACs to
      supporting financial reports;

   •	 traced the 80 DMHAS grant-in-aid payments to the annual financial reports of the 80
      contracted organizations;

   •	 reviewed the documentation supporting the activities sampled in the RMS;

   •	 reviewed the RMS for statistical validity; and

   •	 reviewed the CBMAC calculations for mathematical accuracy.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency’s CBMACs may not have fully complied with Federal requirements.
Specifically:

   •	 The State agency’s calculation of the CBMACs was based on the Medicaid-allocable
      costs incurred by the 80 contracted organizations ($161,480,735), which exceeded by
      $19 million the total amount that DMHAS actually paid to these contracted organizations
      ($142,440,646) for both Medicaid and non-Medicaid services and activities. We were


                                                3

       unable to determine the impact of overstating the cost base on the CBMACs because of
       other errors in the calculations.

   •	 The documentation from the RMS was inadequate for us to determine whether the
      sampled administrative case management activities were allowable and whether they
      were provided to Medicaid applicants or eligibles.

   •	 The allocation method that the State agency used to identify and determine the amount of
      administrative case management activities contained deviations from acceptable
      statistical sampling practices.

We were unable to quantify the effect of these omissions and deviations from acceptable
practices. Specifically, these omissions and deviations affected both the accuracy of the
calculations of the costs allocated to the CBMACs and the validity of the RMS used to allocate
these costs. We are therefore unable to express an opinion on the allowability of the State
agency’s CBMACs totaling $19.8 million for State FYs 2005 and 2006.

These omissions and deviations occurred because the State agency did not establish adequate
procedures to ensure that its CBMACs complied with Federal requirements.

FEDERAL REQUIREMENTS

The CMS “State Medicaid Manual,” section 4302.2(G)(2), states:

       When FFP is claimed for any functions performed as case management
       administrative activities under § 1903(a) of the Act, documentation must clearly
       demonstrate that the activities were provided to Medicaid applicants or eligibles,
       and were in some way connected with determining eligibility or administering
       services covered under the State plan.

Office of Management and Budget Circular A-87, Attachment B, section h.6.a, states that
sampling methods used to allocate salaries to Federal awards must meet acceptable statistical
sampling methods and that the results must be statistically valid.

NONCOMPLIANCE WITH FEDERAL REQUIREMENTS

Overstated Cost Base

The State agency used an overstated cost base when estimating the DMHAS expenditures on
which the CBMACs were based. The maximum cost base that the State agency could have used
was $142,440,646, the total payments that DMHAS made for the 80 contracts. The contracts
included the provision of both Medicaid and non-Medicaid services and activities. Accordingly,
the cost base should have been further limited to Medicaid allocable services and activities and
thus should have been less than DMHAS’s total payments ($142,440,646). However, the cost
base that the State agency used ($161,480,735) exceeded DMHAS’s total payments by
$19 million. We were unable to determine the impact of this overstatement on the estimate of


                                                4

DMHAS expenditures for administrative case management activities because of the other errors
in the CBMAC calculations.

Inadequate Documentation

We cannot express an opinion on the allowability of the State agency’s CBMACs because the
State agency provided us with inadequate support for the RMS that it used to calculate them.
Specifically:

   •	 The RMS that the State agency used to calculate its CBMACs was not supported by
      adequate documentation. The only documentation that the State agency, the State
      agency’s contractor, and the contracted organizations maintained to support the RMS was
      the telephone pollsters’ notes, the related classifications, and definitions of the
      classifications (Appendix B). However, some of the notes or activity code descriptions
      contained insufficient detail to demonstrate whether the activities were provided solely to
      Medicaid applicants or eligibles.

   •	 Because the documentation did not clearly demonstrate to whom the activities were
      provided and whether the individual was a Medicaid applicant or eligible, we could not
      determine whether an administrative case management activity was part of a direct
      service that had already been billed to Medicaid or another Federal program. The lack of
      documentation raised the possibility that the State agency might have received duplicate
      reimbursement for certain administrative activities by separating or “unbundling” them
      from the related direct services.

   •	 The State agency used a Medicaid eligibility rate based on payer statistics for DMHAS
      clients served by approximately 180 contracted organizations throughout the State
      (Appendix C). Because the RMS documentation that the State agency provided did not
      indicate the payer status (e.g., Medicare, Medicaid, private insurance, or self-pay) of the
      clients involved with the sampled activities, we have no assurance that the DMHAS-wide
      rate based on data from 180 contracted organizations was reflective of the clients of the
      80 contracted organizations.

   •	 Four of the eighty contracted organizations whose costs were included in the cost base of
      the CBMACs had State-funded grant-in-aid contracts that did not include the provision of
      administrative case management activities. The State agency could not provide other
      documentation that these four contracted organizations were paid to provide Medicaid
      administrative case management activities. As a result, we have no assurance that the
      costs associated with these four contracted organizations related to Medicaid
      administrative case management activities provided to Medicaid applicants or eligibles
      through the grant-in-aid contracts.




                                               5

Deviations From Acceptable Statistical Sampling Practices

The State agency used an allocation method that contained deviations from acceptable statistical
sampling practices, as the following examples illustrate:

   •	 Acceptable statistical sampling practices involve using a random number generator to
      produce (1) a set of random numbers used to select the sample and (2) the “seed number”
      needed to recreate the random number selection so that the sample can be independently
      validated. The State agency did not retain either the random numbers used or a seed
      number.

   •	 Acceptable statistical sampling practices call for using the appropriate estimation formula
      for the type of sample selected. The State agency used a single-stage estimation formula,
      which is intended for use with a simple random sample, to appraise a sample selected as a
      multistage sample, thus potentially biasing the sample results.

   •	 Acceptable statistical sampling practices reduce the potential for bias by ensuring that
      (1) only eligible employees are selected for participation in an RMS, (2) study
      participants do not have access to potentially biasing information, and (3) employees are
      not notified in advance. The State agency’s methodology contained the following
      departures from these acceptable practices to reduce bias:

           o	 Some of the 80 contracted organizations included ineligible employees such as
              security guards, cafeteria workers, and group home workers on the employee
              work schedules that they provided to the State agency. Because these employees
              spent 100 percent of their time on indirect activities, their inclusion created a bias
              that contributed to the high general administration response rate of 44 percent.

           o	 Instructional materials that the State agency provided to the contracted
              organizations contained the potentially biasing statement that compliance with the
              RMS would help generate additional funds for the State and the contracted
              organizations.

           o	 Before the RMS was conducted, the State agency provided each of the 80
              contracted organizations with the names and contact times of employees who
              would be surveyed by an RMS pollster, thus potentially influencing the
              employees’ assigned duties at the time they were polled. Employees with contact
              times outside of normal business hours were instructed in advance to telephone in
              their activities at the appointed contact time.

   •	 Acceptable statistical sampling practices call for using rates in calculations that are
      representative of the entire time period of the calculation. The State agency used a
      Medicaid eligibility rate based on beneficiaries’ health insurance coverage data on
      December 31, 2004, to calculate the CBMACs for both State FYs 2005 and 2006.
      However, the State agency could not demonstrate that this rate was representative of the
      entire time period of the two claims.


                                                 6

   •	 Acceptable statistical sampling practices include providing appraisal results (i.e., precision
      of the estimates) to give some assurance that the sampled items represent the population as
      a whole. The State agency was unable to provide appraisal results to show that the 751
      sampled items properly reflected the approximately 110 million moments in the population.

   •	 Acceptable statistical sampling practices call for proper treatment of invalid responses.
      Of the 751 RMS responses, 115 were deemed to be invalid and therefore were removed
      from the sample. Of the 115 invalid responses, 57 were related to employee
      nonresponses. Although the State agency removed these nonresponses from the sample
      results, it did not remove the associated employee costs. As a result, the State agency
      overstated the amount of general and administrative costs allocated to the CBMACs.

Because of these deviations from acceptable statistical sampling practices, the State agency was
unable to provide reasonable assurance that its statistical methodology was valid.

EFFECT OF STATE AGENCY’S OMISSIONS AND DEVIATIONS

We were unable to quantify the effect of the omissions and deviations from acceptable practices
that the State agency made when calculating the CBMACs. Specifically, the omissions and
deviations affected both the accuracy of the calculations of the costs allocated to the CBMACs
and the validity of the RMS used to allocate these costs. We are therefore unable to express an
opinion on the allowability of the State agency’s CBMACs totaling $19.8 million for State FYs
2005 and 2006.

LACK OF ADEQUATE PROCEDURES

These omissions and deviations occurred because the State agency did not establish adequate
procedures to ensure that its CBMACs complied with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •	 work with CMS to determine what portion of the CBMACs totaling $19,813,373 for
      State FYs 2005 and 2006 was allowable under Federal requirements by, at a minimum:

           o	 limiting the cost base used to calculate the CBMACs to the amount that DMHAS
              actually paid the 80 contracted organizations,

           o	 obtaining sufficient documentation from the RMS to determine the allowability of
              the activities used to allocate the costs, and

           o	 following acceptable statistical sampling practices and

   •	 consider the results of this review in its evaluation of our prior recommendations.



                                                7

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations.
Specifically, the State agency said that it would work with CMS to determine what portion of the
CBMACs for the years that ended June 30, 2005, and June 30, 2006, was allowable under
Federal requirements. The State agency also said that, after it reaches agreement with CMS on
procedures for claiming these administrative costs, the State agency would use those procedures
to recalculate any additional claims already submitted and to calculate any future claims. In
addition, the State agency said that, once agreement is reached, it would modify its contracts
with the 80 organizations, if required, to better identify the dollars associated with administrative
case management activities.

The State agency’s comments are included in their entirety as Appendix D.




                                                  8

APPENDIXES

                                                                                                                 APPENDIX A




                                                                                                                                     

                                                                                                                   Page 1 of 3




                                                                                                                                 

                        DETAILS OF ORGANIZATIONS PARTICIPATING IN CONNECTICUT’S




                                                                                                       

                      COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM FOR




                                                                                                           

                                     STATE FISCAL YEARS 2005 AND 2006



                                                       Federal        State           Medicaid                 Provider
                     Provider Name                     Share 1     Grant-in-Aid    Allocable Costs 2            Type
1    Ability Beyond Disability                           $22,240      $3,300,318            $362,522   Clinic/Shelter
2    Advanced Behavioral Health                         $320,189      $6,157,095          $5,219,135   Clinic/Shelter
3    Alcohol and Drug Recovery Center                   $462,999      $2,820,829          $7,546,971   Clinic/Shelter
4    ALSO Cornerstone, Inc.                              $83,453      $2,957,890          $1,360,296   Clinic/Shelter
5    Applied Behavioral Rehab and Research Institute      $9,140        $144,316            $148,983   Clinic/Shelter
6    APT Foundation                                     $317,949      $2,246,329          $5,182,629   Clinic/Shelter
7    Asian Family Services                                $2,971        $144,406             $48,430   Clinic/Shelter
8    Bridge House                                        $50,472      $1,197,611            $822,698   Clinic/Shelter
9    Bridgeport - Central CT Coast YMCA, Inc.             $5,659        $222,149             $92,242   Service Organization
10   Bridges Community Support System                   $242,629      $5,207,655          $3,954,889   Clinic/Shelter
11   Catholic Charities of Fairfield County              $33,021      $1,109,919            $538,252   Religious Organization
12   Center for Human Development, Inc.                 $221,345      $3,963,576          $3,607,970   Clinic/Shelter
13   Center for City Churches                             $3,548        $118,178             $57,840   Religious Organization
14   Central Naugatuck Valley HELP                       $59,912      $1,707,597            $976,570   Clinic/Shelter
15   Chrysalis Center, Inc.                             $189,370      $3,101,417          $3,086,771   Clinic/Shelter
16   Columbus House                                      $51,737      $1,159,467            $843,323   Clinic/Shelter
17   Community Health Center                              $3,613         $48,393             $58,891   Clinic/Shelter
18   Community Health Resources Inc.                    $593,148     $10,773,812          $9,668,418   Clinic/Shelter
19   Community Mental Health Affiliates                 $514,118      $8,899,080          $8,380,220   Clinic/Shelter
20   Community Prevention & Addiction Services          $103,294        $776,940          $1,683,715   Clinic/Shelter
21   Community Renewal Team                               $3,553         $90,150             $57,910   Clinic/Shelter
22   Connecticut Counseling Centers                     $239,770        $484,193          $3,908,285   Clinic/Shelter
23   Connecticut Renaissance                            $142,525      $1,287,118          $2,323,189   Clinic/Shelter
24   Connection, Inc.                                   $106,971      $1,675,708          $1,743,651   Clinic/Shelter
25   Continuum of Care, Inc.                            $162,461      $2,957,859          $2,648,144   University
26   Coordinating Council for Children in Crisis          $3,921         $18,988             $63,905   Clinic/Shelter
27   Crossroads                                         $165,391      $2,121,946          $2,695,906   Clinic/Shelter
28   CTE                                                  $9,053         $19,134            $147,570   Clinic/Shelter
29   Dixwell Newhallville Community Mental Health        $21,072        $309,458            $343,475   Clinic/Shelter
                                                                                                        APPENDIX A




                                                                                                                            

                                                                                                          Page 2 of 3




                                                                                                                        

                       DETAILS OF ORGANIZATIONS PARTICIPATING IN CONNECTICUT’S




                                                                                              

                     COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM FOR




                                                                                                  

                                    STATE FISCAL YEARS 2005 AND 2006


                                              Federal        State           Medicaid                 Provider
                     Provider Name            Share 1     Grant-in-Aid    Allocable Costs 2            Type
30   Fairfield Community Services                $3,423         $28,742             $55,789   Clinic/Shelter
31   Family & Children Agency, Inc.             $36,234        $294,986            $590,621   Clinic/Shelter
32   Family Services Woodfield                  $13,585        $356,015            $221,446   Clinic/Shelter
33   Farrell Treatment Center                   $44,842        $296,038            $730,937   Clinic/Shelter
34   First Step                                $121,038      $4,153,210          $1,972,941   Clinic/Shelter
35   Friendship Service Center                   $4,117         $48,742             $67,100   Religious Organization
36   Gilead                                    $191,671      $5,164,726          $3,124,267   Clinic/Shelter
37   Goodwill                                   $78,676      $1,551,185          $1,282,428   Clinic/Shelter
38   Hall-Brooke Behavioral Health Services      $8,379        $537,953            $136,572   Hospital
39   Harbor Health                             $271,497      $4,008,279          $4,425,441   Clinic/Shelter
40   Hartford Behavioral Health                 $81,835        $991,989          $1,333,918   Clinic/Shelter
41   Hartford Dispensary                       $468,065      $2,077,084          $7,629,538   Clinic/Shelter
42   Helping Hand Center                        $14,917        $102,548            $243,153   Clinic/Shelter
43   Integrated Behavioral Health               $88,648      $1,641,661          $1,444,986   Clinic/Shelter
44   Inter-Community MH Group                  $266,946      $3,948,512          $4,351,259   Clinic/Shelter
45   Interlude, Inc.                            $73,570        $817,038          $1,199,207   Clinic/Shelter
46   Keystone House                             $88,794      $2,152,023          $1,447,363   Clinic/Shelter
47   Laurel House                               $59,030      $1,132,096            $962,197   Clinic/Shelter
48   Leeway Inc.                                 $2,761         $45,000             $45,000   Clinic/Shelter
49   Liberty Community Services                 $49,320        $221,244            $803,920   Clinic/Shelter
50   LMG Programs                              $479,403      $2,084,853          $7,814,354   Clinic/Shelter
51   Marrakech                                  $34,031        $702,638            $554,719   Clinic/Shelter
52   McCall Foundation                         $127,086        $599,679          $2,071,523   Clinic/Shelter
53   Mental Health Association of CT           $374,463      $6,963,437          $6,103,819   Clinic/Shelter
54   Mercy Housing Shelter Corp                $144,301      $1,324,261          $2,352,138   Religious Organization
55   Midwestern CT Council on Alcoholism       $191,271      $1,083,394          $3,117,744   Clinic/Shelter
56   Morris Foundation                         $145,140      $1,429,970          $2,365,812   Clinic/Shelter
57   My Sister's Place, Inc.                    $68,052        $824,867          $1,109,267   Clinic/Shelter
58   New Directions                             $30,812         $59,664           $502,236    Clinic/Shelter
59   New Haven Home Recovery                    $16,307        $270,356            $265,805   Clinic/Shelter
                                                                                                                                           APPENDIX A
                                                                                                                                             Page 3 of 3
                               DETAILS OF ORGANIZATIONS PARTICIPATING IN CONNECTICUT’S




                                                                                                                                 

                             COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM FOR




                                                                                                                                     

                                            STATE FISCAL YEARS 2005 AND 2006


                                                                          Federal             State             Medicaid                 Provider
                             Provider Name                                Share 1          Grant-in-Aid      Allocable Costs 2            Type
60       NW CENTER for Families                                               $11,974              $93,240           $195,171    Clinic/Shelter
61       Operation Hope                                                        $4,776             $314,804             $77,847   Clinic/Shelter
62       Pathways                                                             $36,397             $957,468            $593,277   Clinic/Shelter
63       Perception Programs                                                  $72,434             $698,512          $1,180,684   Clinic/Shelter
64       Positive Directions                                                   $9,176              $57,382           $149,567    Clinic/Shelter
65       Regional Network of Programs                                       $411,773            $2,515,768          $6,711,966   Clinic/Shelter
66       Reliance House                                                     $332,132            $5,212,824          $5,413,808   Clinic/Shelter
67       Rushford                                                           $389,025            $6,351,519          $6,341,172   Hospital
68       St. Luke’s Lifeworks                                                 $47,039             $895,588            $766,749   Religious Organization
69       St. Vincent DePaul Society MDT                                        $6,958             $130,352            $113,415   Religious Organization
70       St. Vincent DePaul Society of Waterbury                              $15,026           $1,369,694            $244,933   Religious Organization
71       Stafford (Town of) Family Services                                   $10,339              $66,797           $168,522    Local Government
72       Supportive Environmental Living Facility                             $65,806           $1,231,886          $1,072,647   Clinic/Shelter
73       Torrington Chapter of FISH                                            $1,796              $29,275             $29,275   Clinic/Shelter
74       United Community & Family Services                                    $9,214             $173,700            $150,188   Clinic/Shelter
75       United Services                                                    $334,487            $5,770,080          $5,452,189   Clinic/Shelter
76       Valley Mental Health Center                                        $277,227            $5,298,088          $4,518,842   Clinic/Shelter
77       Wheeler Clinic                                                       $99,198             $850,508          $1,616,951   Clinic/Shelter
78       Yale University Child Study Center                                    $6,987             $113,883            $113,883   University
79       Yale University Hamden Behavioral Health                             $29,851             $322,145            $486,574   University
80       YWCA                                                                 $11,336              $53,413           $184,776    Service Organization
                 Totals                                                   $9,906,687 3       $142,440,6463       $161,480,7353
1
    Federal share, State grant-in-aid, and Medicaid allocable costs are for State fiscal year (FY) 2005.
2
 The Department of Mental Health and Addiction Services (State agency) computed Medicaid allocable costs to be a contracted organization’s annual
expenditures less unallowable expenditures (per Office of Management and Budget Circular A-87), indirect costs, and supporting Federal funds.
3
    Some values are rounded.
                                                                                      APPENDIX B




                                                                                                                                          

                                                                                         Page 1 of 2
             RANDOM MOMENT TIMESTUDY ACTIVITY CODES FOR CONNECTICUT’S COMMUNITY BASED
              MEDICAID ADMINISTRATIVE CLAIM PROGRAM FOR STATE FISCAL YEARS 2005 AND 2006

                                                                                                                                  Number of
                                                                                                                              1
                                    Activity Code Description                                           Included in CBMACs?         RMS2
                                                                                                                                  Responses
(1) Direct Medical Services is used for direct medical care, treatment, and/or counseling services,
including medical and mental health assessments and evaluations to correct or ameliorate a
                                                                                                                No                   47
specific condition. Includes all related paperwork, clerical activities, or staff travel required to
perform these activities.
(2) Direct Nonmedical Services is used for activities that are not medical in nature, such as
education, employment, job training, or social services provided to clients. Includes all related               No                   38
paperwork, clerical activities, or staff travel required to perform these activities.
(3) Targeted Case Management (TCM) is used for services that assist and enable clients to gain
access to needed medical, social, educational, or other services, including assessment, service
                                                                                                                No                   84
planning, service linkage, ongoing monitoring, ongoing clinical support, and advocacy services
provided to clients.
(4) Referral, Coordination, and Monitoring of Medical Services covers the linking of
individuals and families with Medicaid service providers to plan, carry out, and maintain a health              Yes                  54
service plan (not billable TCM).
(5) Referral, Coordination, and Monitoring of Nonmedical Services covers the linking of
individuals and families with providers to plan, carry out, and maintain a non-health related                   No                    9
service plan (not billable TCM).
(6) Client Assistance To Access Medicaid Services includes arranging for specific provisions,
such as transportation or translation assistance, that are necessary for an individual or family to             Yes                   3
access Medicaid services.
(7) Client Assistance To Access Non-Medicaid Services includes arranging for specific
provisions, such as transportation or translation assistance, that are necessary for an individual or           No                    4
family to access non-Medicaid educational and social services.
(8) Outreach for Medicaid Services is for activities that inform individuals about Medicaid and
how to access Medicaid and related services and about the importance of accessing medical,
mental health, and alcohol and drug services and maintaining a routine place for health care.                   Yes                   3
Activities include bringing persons into the Medicaid system for the purpose of determining
eligibility and arranging for the provision of medical and other health-related services.
                                                                                         APPENDIX B
                                                                                            Page 2 of 2
                RANDOM MOMENT TIMESTUDY ACTIVITY CODES FOR CONNECTICUT’S COMMUNITY BASED
                 MEDICAID ADMINISTRATIVE CLAIM PROGRAM FOR STATE FISCAL YEARS 2005 AND 2006
                                                                                                                              Number of
                                       Activity Code Description                                      Included in CBMACs? 1     RMS 2
                                                                                                                              Responses
(9) Outreach for Non-Medicaid Services is used for activities that inform individuals about
                                                                                                               No                 0
non-Medicaid social, vocational, and educational programs and how to access them.
(10) Facilitating Access to the Medicaid Program includes assisting an individual or family to
make application for Medicaid or referring them to the appropriate agency to make application, as             Yes                 3
well as assisting an individual to maintain Medicaid eligibility.
(11) Facilitating Access to Non-Medicaid Programs includes assisting an individual or family in
applying for non-Medicaid assistance (e.g., food stamps, day care, and legal aid) and referring                No                 4
them to the appropriate agency to submit the application.
(12) Program Planning, Policy Development, and Interagency Coordination Related to
Medical Services is used for activities associated with developing strategies to improve the
                                                                                                              Yes                29
coordination and delivery of medical and mental health services to individuals and families and for
collaborative activities with other agencies to provide effective medical services.
(13) Program Planning, Policy Development, and Interagency Coordination Related to
Nonmedical Services is used for activities associated with developing strategies to improve the
                                                                                                               No                15
coordination and delivery of non-Medicaid human services to individuals and families and for
collaborative activities with other agencies to provide non-Medicaid services.
(14) General Administration is used for activities that cannot be directly assigned to program
                                                                                                              Yes                234
activities.
(15) Not Scheduled at Work is used when the staff person being sampled is not scheduled to be
                                                                                                               No                109
at work.
(16) Invalid Response is used when the position is vacant, the sampled worker does not respond
                                                                                                               No                115
to the pollster, or the worker responds more than 48 hours after the observation moment.
                                                                            Total RMS Responses                                  751


   1
       CBMACs = Community Based Medicaid Administrative Claims
   2
       RMS = Random moment timestudy
                                                                                                                                      APPENDIX C
                                                                                                                                        Page 1 of 2




                                                                                                                                                        

                  CALCULATION OF CONNECTICUT’S COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIMS FOR




                                                                                                                                              

                                           STATE FISCAL YEARS 2005 AND 2006




                                                                                                         

     Connecticut’s CBMACs were calculated by:
     (1) subtracting the general administration, not scheduled to work, and invalid RMS responses from the RMS response total to determine the
         net RMS response total;
     (2) dividing the number of RMS responses by the net RMS response total to determine the net RMS response percentage;
     (3) multiplying the net RMS response percentage by the Medicaid eligibility rate to determine the allocable RMS response percentage;
     (4) multiplying the net RMS response percentage by the total Medicaid allocable cost base to determine the total claim by activity code; and
     (5) multiplying the total CBMAC by activity code by the Medicaid administrative cost Federal financial participation (FFP) rate of 50




                                                                                                                                                  

         percent.

                                   Connecticut’s Community Based Medicaid Administrative Claim Calculation 1
                                                                     Medicaid      Allocable                                       Medicaid
                                           Net Number                Eligibility     RMS       Total Medicaid                    Administrative
                                             of RMS      Net RMS        Rate       Response    Allocable Cost   Total Claim by   Cost FFP Rate       FFP by
 RMS            Number of       RMS         Responses   Response %       %            %             Base        Activity Code          %          Activity Code
Activity          RMS          Response
 Code           Responses         %            1            2            3         4=2x3             5             6=4x5               7               8=6x7
   1                 47            6.26%        47          16.04%
   2                 38            5.06         38          12.97
   3                 84          11.19          84          28.67
   4                 54            7.19         54          18.43       34.83%       6.42%      $161,480,735     $10,364,610         50%              $5,182,305
   5                  9            1.20          9           3.07
   6                  3            0.40          3           1.02        34.83       0.36       $161,480,735        $575,812          50               $287,906
   7                  4            0.53          4           1.37
   8                  3            0.40          3           1.02       100.00       1.02       $161,480,735      $1,653,386          50               $826,693
   9                  0            0.00          0           0.00
  10                  3            0.40          3           1.02       100.00       1.02       $161,480,735      $1,653,386          50               $826,693
  11                  4            0.53          4           1.37
  12                 29            3.86         29           9.90        34.83       3.45       $161,480,735      $5,566,179          50              $2,783,090
  13                 15            2.00         15           5.12
  14                234          31.16           0         N/A
  15                109          14.51           0         N/A
  16                115          15.31           0         N/A
Totals              751         100%           293        100%          N/A        12.41%           N/A          $19,813,373          N/A             $9,906,687


           1
               Some values are rounded.
                                                                                                                         APPENDIX C
                                                                                                                           Page 2 of 2


In correspondence with the Centers for Medicare & Medicaid Services, the State agency said that it had used a Medicaid eligibility
rate based on beneficiaries’ health insurance coverage data on December 31, 2004, the midpoint of State FY 2005, to calculate the
CBMACs for both State FYs 2005 and 2006. However, the State agency did not demonstrate that the December 31, 2004, rates were
equivalent to the State FYs 2005 and 2006 rates. In addition, this Medicaid eligibility rate was not limited to the clients serviced by
the specific 80 contracted organizations whose costs were used to calculate the CBMACs. Instead, it was based on the type of health
insurance coverage used by all 59,550 active clients served by 180 contracted organizations of the State agency as of December 31,
2004. The 34.83 percent Medicaid eligibility rate comprised two groups of clients: 15,797 with dual Medicare and Medicaid
coverage (26.53 percent) and 4,942 with Medicaid-only coverage (8.30 percent).

                             Connecticut Department of Mental Health and Addiction Services Clients
                                             by Type of Health Insurance Coverage

                                Type of Health Insurance                           Number of Clients        Percent
                  Medicare and Medicaid                                                15,797
                  Medicaid                                                                                 26.53%
                                                                                         4,942               8.30
                                                                                         20,739             34.83
                  Subtotal
                  Medicare                                                                                   13.42
                                                                                         7,992
                  State General Assistance                                               10,292              17.28
                  Department of Mental Health and Addiction Services                     16,580              27.84
                  Health Maintenance Organizations                                                          0.56
                  Other                                                                  332
                                                                                         3,615              6.07
                                                                                         59,550           100.00%
                  Total
                                                                                           APPENDIX D
                                                                                           Page 1 of 2

                           STATE OF CONNECTICUT                                              TELEPHONE
                                                                                             (860) 424-5053
                            DEPARTMENT OF SOCIAL SERVICES                                    TDDmy
                                                                                              1-800-842-4524

MICHAEL P STARKOWSKI
                                OFFICE OF THE COMMISSIONER                                    FAX
                                                                                              (860) 424-5057
Commissioner
                                                                                              EMAIL
                                                                                              comm is.dssili'ct. flOY
       July 14, 2009

       Mr. Michael J. Armstrong
 

       Regional Inspector General for Audit Services
 

       Office of Audit Services, Region I
 

       JFK Federal Building
 

       Boston, MA 02203
 


       Dear Mr. Armstrong:

       I am writing in response to the recent draft audit report, "Review of Connecticut's
       Community Based Medicaid Administrative Claim for State fiscal Years 2005 and 2006
       (A-OI-08-00003)" received by the Connecticut Department of Social Services (DSS) on
       July 7,2009. In it, the Connecticut claim forthese services was cited for omissions and
       deviations from acceptable practices that affected the accuracy and calculations of costs
       for the Community Based Medicaid Administrative claim. In total, federal financial
       participation of $19.8 million was questioned for these fiscal years. The review states that
       the OIG is unable to express an opinion on the allowability of these costs given the issues
       cited.

       Specifically, the draft review makes the following recommendations:

       •	 The State should draft future contracts with the contracted organizations delivery
          community based Medicaid administrative claims (CB MAC) to identify and properly
          value the amount of administrative case management activities purchased through the
          contracts and subsequently claimed as CB MAC.

        •	 The State should work with CMS to determine what portion of the Community Based
           Medicaid Administrative claim for State Fiscal Years 2005 and 2006, was allowable
           under federal requirements. At a minimum this review should limit the cost base used
           to calculate the claim to actual payments to the DMHAS contractors, obtain sufficient
           documentation from RMS to support the claimed activities, and follow acceptable
           statistical sampling practices.

        Similar to our earlier response on the GIG CBMAC review of SFY 2004, the Department
        agrees to work with CMS to determine what portion of the community based Medicaid
        administrative claim of$19.8 m for the years that ended on June 30, 2005 and June 30,
        2006 was allowable under federal requirements. Once we agree with CMS on a procedure
        that we can utilize, we will use that procedure for any additional prior claims that have
        already been submitted, as well as any claims that may be submitted in the future.



                       25 SIGOURNEY STREET • HARTFORD, CONNECTICUT 06106-5033
 

                                   An Equal Opportunity I Affirmative Action Employer
 

                                          Printed on Recycled or Recovered Paper
 

                                                    www.ct.gov/dss
 

                                                                             APPENDIX D
                                                                             Page 2 of 2



In regard to the recommendation regarding DMHAS contracts, once a procedure has been
agreed to, the Department will review the methods by which we can document costs for
these activities under the agreed upon procedures. If required under the procedures
established, the State will modify the contracts with DMHAS contracted organizations to
better identify dollars associated with administrative case management activities.


Thank you again for the opportunity to comment on your draft review. If you have any
specific questions in regard to this matter, please contact Lee Voghel, our Director of
Financial Management & Analysis at (860) 424-5842.




Michael P. Starkowski, Commissioner
Connecticut Department of Social Services



Cc:	 	   Joseph Barkus, CMS Region I, Boston
         Mary Moriarty, CT CMS Liaison
         Pat Rehmer, Deputy Commissioner, DMHAS
         Steve Netkin, OPM
         Mark Schaefer
         Lee Voghel
         John McConnick
         Gordon Lustila
         Mike Gilbert
